January 22, 2021
Writer’s Direct Contact
(202) 220-1101
(213) 683-4007 FAX
Donald.Verrilli@mto.com

Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Bognet, et al. v. Boockvar, et al., No. 20-740

Dear Mr. Harris:
I am writing on behalf of respondent the Democratic National Committee in the
above-referenced case to request an extension of 31 days, to and including Monday, March 15,
2021 (the Monday following Sunday, March 14, 2021), for the filing of a brief in opposition to
the petition for a writ of certiorari. Absent an extension, the brief in opposition would be due on
Friday, February 12, 2021. This is the first extension the Democratic National Committee has
sought since the Court called for a response in this case.
This extension is necessary because the attorneys with primary responsibility for
preparing the brief in opposition in this case have competing deadlines that will make it difficult
to complete the brief by the current due date.
Thank you very much for your time and assistance on this matter.

Scott S. Harris
January 22, 2021
Page 2

Sincerely,

Donald B. Verrilli, Jr.
cc:

Counsel of Record for all parties

